audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Town of Lynchburg, South Carolina
GR-40-99-012	
June 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Town of Lynchburg (grantee), South Carolina.  The grantee received a $38,205 grant (95-CF-WX-3714) to hire or rehire one additional sworn police officer under the Funding Accelerated for Smaller Towns (FAST) program, and a $168,680 supplemental grant to hire or rehire two full-time and two part-time officers under the Universal Hiring Program (UHP).  The purpose of the additional officers is to enhance community policing efforts.

In brief, our audit determined the grantee:

Claimed $8,491 in salaries and fringe benefits that were not supported by time and attendance records.

	Did not implement community policing as planned in its grant application.

	Does not have a plan to retain the officers funded under the UHP grant.

	Did not submit any monitoring reports to COPS.

	Incorrectly reported total program outlays and the Federal share of outlays to the Office of Justice Programs.  Thirteen of 15 Financial Status Reports were submitted late, 1 was not submitted, and 1 was submitted on time.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.